              Audit Report




      Controls over Claimant
Representative Fee Petition Payments




      A-05-13-13061 | September 2014
MEMORANDUM


Date:      September 29, 2014                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether claimant representative fee petition payments were (1) authorized by required parties,
           (2) paid in the appropriate amount, (3) supported by sufficient evidence, and (4) tracked by
           management.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Controls over Claimant Representative Fee Petition Payments
A-05-13-13061

September 2014                                                              Office of Audit Report Summary

Objective                                  Our Findings

To determine whether claimant              Our control testing of 50 fee petition payments that exceeded
representative fee petition payments       $6,000 in Fiscal Year 2012 found controls were not always working
were (1) authorized by required            as intended. Specifically, while we found sufficient support
parties, (2) paid in the appropriate       authorizing the fee payments, SSA did not always (1) pay fees in
amount, (3) supported by sufficient        accordance with SSA policies and the petition specifications,
evidence, and (4) tracked by               (2) maintain required documentation for the fee petition process, or
management.                                (3) adequately track fee petitions in its management information
                                           systems. For example, we identified payment processing errors in
Background                                 16 (32 percent) of the 50 cases we reviewed. In seven instances,
                                           SSA incorrectly issued direct fee payments to former claimant
The Social Security Administration         representatives who withdrew or, had been discharged, before the
(SSA) must authorize any fees payable      favorable decision.
for services performed by an appointed
claimant representative. Appointed         In 2011, an Office of Disability Adjudication and Review Fee
claimant representatives may seek the      Petition Workgroup identified weaknesses in fee petition processing
Agency’s authorization for their fee by    similar to those identified in our review. The workgroup
following one of two alternative and       recommended increased training, system improvements, and greater
mutually exclusive processes: (1) a fee    centralization of the process. At the time of our review, SSA was
agreement filed before a favorable         still in the planning stages to integrate claimant-specific and related
decision is rendered or (2) a fee          claimant representative data maintained in approximately
petition that is generally filed when      19 separate systems. While the Agency has provided additional
services have ended.                       training and guidance on fee petitions, it still needs to integrate the
                                           various claimant representative systems to improve the underlying
Based on the information submitted         fee petition process.
with the fee petition, such as hours
worked and services provided, SSA          Our Recommendations
will authorize a reasonable fee. A         We recommend that SSA:
claimant representative may request
that the Agency pay the authorized fee     1. Provide additional training and guidance to employees to
out of a claimant’s past-due benefits if      improve payment processing, documentation, and management
the claimant representative is an             information associated with fee petitions.
attorney or a non-attorney who has met     2. Expedite implementation of an integrated management
certain prerequisites. Authorized fee         information system that will provide complete and timely
amounts that are not available from           information and facilitate inter-component communication on
past-due benefits must be collected           fee petitions.
from the claimant.
                                           3. Review the error cases in our sample and take the necessary
                                              actions to resolve these errors, as appropriate.

                                           SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Authorization and Payment of Fee Petition Amounts ...............................................................4
           Fee Petition Authorization ...................................................................................................4
           Fee Petition Payment Accuracy ...........................................................................................4
           Fee Petition Supporting Evidence ........................................................................................7
     Fee Petition Management Information ......................................................................................7
           Planned System Upgrades....................................................................................................9
     Fee Petition Workgroup .............................................................................................................9
Conclusion .....................................................................................................................................10
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Fee Petition Workgroup ...................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)
ABBREVIATIONS
AC                   Appeals Council

ALJ                  Administrative Law Judge

CFR                  Code of Federal Regulations

CPMS                 Case Processing and Management System

FAcTS                Fee Action Tracking System

HALLEX               Hearings, Appeals, and Litigation Law Manual

NDMIS                National Docketing and Management Information System

NHC                  National Hearing Center

OAO                  Office of Appellate Operations

OCALJ                Office of the Chief Administrative Law Judge

ODAR                 Office of Disability Adjudication and Review

OGC                  Office of the General Counsel

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

RO                   Regional Office

SPS                  Single Payment System

SSA                  Social Security Administration

U.S.C.               United States Code

WebAFS               Web-based Attorney Fee System




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)
OBJECTIVE
To determine whether claimant representative fee petition payments were (1) authorized by
required parties, (2) paid in the appropriate amount, (3) supported by sufficient evidence, and
(4) tracked by management.

BACKGROUND
The Social Security Administration (SSA) must authorize any fees payable for services
performed by an appointed claimant representative. Appointed claimant representatives may
seek the Agency’s authorization for their fee by following one of two alternative and mutually
exclusive processes: (1) filing a fee agreement before rendering a favorable decision or (2) filing
a fee petition when services have ended.

The amount specified in a fee agreement cannot exceed the lesser of 25 percent of the total
amount of past-due benefits or $6,000, 1 whereas a greater amount can be paid under the fee
petition process. 2 An appointed representative can request that the Agency pay the authorized
fee directly out of a claimant’s past-due benefits if he/she is an attorney or a non-attorney who
has met certain prerequisites. SSA will withhold a potential fee payment from the claimant’s
past-due benefits if it expects to make a fee payment to a claimant representative. If past-due
benefits are not available, claimant representatives must collect authorized fee amounts directly
from the claimant.

When submitting a fee petition, a claimant representative must file a Form SSA-1560-U4,
Petition to Obtain Approval of a Fee for Representing a Claimant before the Social Security
Administration, with SSA. Agency guidelines require that fee petitions include

   dates of services,
   services provided,
   time spent on each service,
   fee requested,
   fees or charges for the same matter before any State or Federal court,
   amounts received toward payment of the fee held in trust or escrow account,
   list of expenses and amount incurred he/she has been paid or expects to be paid, and
   statement affirming he/she sent a copy of the petition and any attachment(s) to the claimant.


1
 Social Security Act §§ 206(a)(2)(A) and 1631(d)(2)(B), 42 U.S.C. §§ 406(a)(2)(A) and 1383(d)(2)(B). For fee
agreements processed on or after June 22, 2009, the maximum fee amount is $6,000. SSA, HALLEX I-5-1-18—
Increased Dollar Cap for Fee Agreements (June 19, 2009).
2
 SSA only withholds up to 25 percent of a claimant’s benefits for potential fees when the claimant representative is
eligible for direct pay. The claimant representative must collect amounts above the 25 percent from the claimant.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                        1
Based on the information submitted with the fee petition, SSA can authorize a reasonable fee to
the claimant’s representative after considering criteria in the regulations, including the

     extent and type of services performed,
     complexity of the case,
     skill and competence required,
     time spent,
     results,
     level of review reached, and
      amount requested. 3

SSA receives and processes fee petitions at all levels of the benefit adjudication process
(see Table 1).

        Table 1: SSA Components and Parties Processing Fee Petitions at Various Levels
                           Operations – Initial and Reconsideration Levels
    For claims at the initial and reconsideration levels, program service center employees adjudicate fee
    petitions up to $10,000. The Attorney Fee Branch in the Office of Appellate Operations adjudicates
    petitions above $10,000.
                      Office of the Chief Administrative Law Judge – Hearings
    For claims at the hearings level, administrative law judges (ALJ) at hearing offices adjudicate fee
    petitions up to $10,000. Regional Chief ALJs adjudicate petitions above $10,000.
                               Office of Appellate Operations – Appeals
    For claims at the appeals level, the Attorney Fee Branch adjudicates fee petitions for cases decided by
    the Administrative Appeals Judges in the Appeals Council.
                                    Federal Courts – Federal Appeals
    For claims at the Federal level, Federal judges adjudicate fee petitions.

In Fiscal Year (FY) 2012, SSA paid approximately $1.6 billion in fee agreements and fee
petitions to claimant representatives, with fee agreements constituting the majority of these




3
 20 CFR 404.1725(b), 416.1525(b); SSA, HALLEX I-1-2-57—Evaluating Fee Petitions (February 25, 2005); SSA,
POMS GN 03930.010—Determining a Reasonable Fee Under the Fee Petition Process (February 28, 2005); and
SSA, POMS GN 03930.105—Determining the Fee for Services Provided Below the Hearing Level (January 21,
2010).



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                   2
payments. 4 SSA also assesses a user fee or service charge on claimant representatives who
receive direct payment of fees from SSA by withholding the amount from his/her fee payment. 5

To meet our objective, we selected a random sample of 50 closed cases for FY 2012 where the
claimant’s representatives received payments that exceeded $6,000 related to a fee petition. Our
50 cases involved approximately $540,000 in fee petition payments, ranging from a low of
$6,170 to a high of $26,622. Of these cases, 46 related only to the Title II program, 3 related
only to the Title XVI program, and 1 related to both programs. For each sample item, we
reviewed electronic disability folder information, payment systems, management information
tracking systems, and other Agency records to meet our audit objective. We also met with
Agency staff in ODAR and the Offices of Operations, General Council, and Systems at the field
and Headquarters levels to discuss the fee petition process and related systems. See Appendix A
for more on our methodology.

RESULTS OF REVIEW
Our control testing of 50 fee petition payments that exceeded $6,000 in Fiscal Year 2012 found
sufficient support authorizing the fee payments, though SSA did not always (1) pay fees in
accordance with SSA policies and petition specifications, (2) maintain required documentation
for the fee petition process, and (3) adequately track management information for fee petitions.
For example, we identified payment processing errors in 16 (32 percent) of the 50 cases we
reviewed.

   In seven cases (14 percent), the fee petition payments were incorrectly paid directly to former
    representatives who withdrew, or had been discharged, before the favorable decision.

   In seven cases (14 percent), claimant past-due benefits were not properly withheld to
    reimburse the claimant representatives.

   In six cases (12 percent), fee assessments on the direct payments were in the wrong amount
    (four overlapped with other cases above).

In 2011, an ODAR workgroup reviewed the fee petition process and identified weaknesses
similar to those identified in our review. The workgroup recommended increased training and
centralization of the process. At the time of our review, SSA was still in the planning stages to
integrate claimant-specific and related claimant representative data maintained in approximately
19 separate systems. While the Agency has provided additional training and guidance on fee


4
  Coding in the Agency’s Single Payment System (SPS) used to make payments to claimant representatives
indicated about 4 percent of the fee payments in FY 2012 related to petitions. However, about 26 percent of the fee
payments lacked coding indicating whether a fee agreement or fee petition was involved. As we note within this
report, SSA lacks a comprehensive management information system for fee payments that would provide greater
detail on the breakout between agreements and petitions.
5
 SSA, POMS GN 03920.019 —Assessment on Representatives Who Receive Direct Payment (December 2, 2013).
The flat rate assessment effective December 1, 2013 is $89.00 or 6.3 percent of the fee payment, whichever is less.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                           3
petitions, it still needs to integrate the various claimant representative systems to improve the
underlying fee petition process.

Authorization and Payment of Fee Petition Amounts
We found sufficient evidence that the adjudicators appropriately authorized the fee petition
payments made to claimant representatives. However, we identified a number of issues related
to the Agency’s payment and support for fee petitions in FY 2012.

Fee Petition Authorization
Our review of the 50 control sample cases found sufficient evidence that the adjudicators
appropriately authorized the fee petition payments made to claimant representatives involved in
the cases. 6 To complete this step, we reviewed the contents of fee petition documents and
authorizing statements by the adjudicators. In some cases, more than one adjudicator was
involved in the determination of petition fees payable to the claimant representatives. For
instance, in one of our sample cases, a Federal judge remanded a claimant’s appeal back to the
ALJ who originally denied the case. In this instance, the ALJ allowed the case and authorized
the amount of fees payable to the claimant representative for the work done at the Agency level.
The Federal judge then authorized an additional amount for the claimant representative’s work
before the Federal Court.

Fee Petition Payment Accuracy
Of the 50 fee petition cases we reviewed, we identified payment processing errors in
16 cases (32 percent). Specifically, in seven cases, SSA was not supposed to pay the fee directly
to the claimant representative. In seven other cases, SSA paid all of the claimant’s past-due
benefits without deducting the fee owed the claimant representative. Additionally, while minor
in monetary impact, in six cases, SSA incorrectly assessed user fees. 7

Fees Incorrectly Paid Directly to the Claimant Representative

Per SSA policy, when more than one representative files a fee petition and requests direct
payment for a particular claim, only eligible representatives should receive direct payment from
SSA. 8 SSA policy states that, while claimant representatives who withdraw or have been


6
    We discuss the level of documentation related to these authorizations later in this report.
7
 Four of the six cases with user fee issues were also among the seven cases already mentioned where SSA was not
supposed to pay the fee directly to the claimant representative.
8
  SSA, POMS, GN 03920.017—Payment of Representative’s Fees (July 25, 2012). SSA does not withhold benefits
for potential direct payment of fees to any representative whose appointment is no longer in effect as a result of a
final disqualification or suspension decision by the Office of the General Counsel (OGC), or a withdrawal or
revocation of appointment that occurs before a favorable decision. Although a representative who has withdrawn or
been discharged from representing a claimant may petition for approval of a reasonable fee for his/her services,
collection of the authorized fee would be between the claimant and the former representative.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                        4
discharged from representing a claimant may petition for approval of a reasonable fee for his/her
services, collection of the authorized fee is between the claimant and the former representative.
However, we found seven cases in which SSA paid about $23,000 to claimant representatives
who withdrew or had been discharged before the favorable decision. For instance, in one case,
two representatives received $9,557 in direct payments for the same claimant’s case. However,
one of the representatives had withdrawn from the case 8 months before the ALJ’s payment
authorization. The ALJ authorized the former claimant representative to collect $7,153 on the
case, though he also ordered the representative to go to the claimant for payment. However,
Agency staff directly paid the former representative the full-authorized amount within 2 weeks
of the ALJ’s payment authorization.

Fees Not Withheld from Claimants’ Past-Due Benefit Payments

We found seven cases, totaling approximately $62,400, where SSA released the past-due
benefits to the claimant before it paid the claimant representative. 9 In such cases, the claimant
representatives are to seek payment from the claimant rather than SSA. If the claimant does not
pay the representative the authorized fee, SSA will directly pay the claimant representative,
establish an overpayment on the claimant’s record, and withhold amounts from the claimant’s
future benefits to reimburse the Agency. 10 In one case, SSA authorized $9,500 to be paid to the
representative but only withheld $6,000 from the claimant’s past-due benefits. 11 SSA ordered the
representative to collect the remaining $3,500 from the claimant. However, when the claimant
representative was unable to collect the fee after approximately 9 months, SSA paid the
$3,500 directly to the representative. SSA also established a $3,500 overpayment on the
claimant’s record and began collecting these funds.

In one of the seven cases, SSA did not set up an overpayment on the claimant’s record for the
$14,448 it paid on the claimant’s behalf. We shared this case with SSA management to ensure
collection of the overpaid funds from the beneficiary. 12




9
 SSA terms the early release of funds set aside for claimant representatives as an “inadvertent release” in its
communications with the public. Five of the seven cases were processed at the Federal court level.
10
  We discussed this issue and related problems in our October 2012 audit of Claimant Representative Fees Paid but
Not Withheld from Title II Past-Due Benefits (A-04-11-11102). In the report, we recommended the Agency
(1) issue a reminder to staff to take the necessary actions to withhold the representative fee from past due benefits
and (2) periodically assess Title II disability claims to ensure overpayments did not occur.
11
  In this case, 25 percent of the past-due benefit was $10,072, but the Agency released all funds in excess of
$6,000 to the claimant before it paid the claimant representative.
12
  We learned from Agency records that the claimant died in July 2011. The Agency has alternate collection
procedures in such cases, including contacting family members and the individual handling the claimant’s estate.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                         5
User Fees Assessed in the Wrong Amount

We found six cases 13 where SSA incorrectly assessed the claimant representative’s user fee. 14
Per Agency policy, the user fee assessment on each case was limited to the lesser of 6.3 percent
of the claimant representative’s payment or $83/$86. 15 In three overcharge cases, the fees were
$153, $166, and $169. For example, in one case, SSA charged two claimant representatives
related to the same claimant the full user fee of $83 each. Rather than charge the user fee to
the current representative, SSA charged user fees to both the current and former
representatives. 16 For the remaining three undercharged cases, SSA charged $75, $75, and $43.

Time Limit for Filing Fee Petitions

The Agency’s Form SSA-1560-U4, Petition to Obtain Approval of a Fee for Representing a
Claimant Before the Social Security Administration, indicates the representative must submit a
fee petition, or written notice of intent to file a request, within 60 days of the date a favorable
decision is mailed if he/she wants SSA to directly pay them. 17 Allowing claimant representatives
to provide a notice of intent to file a fee petition extends the period for submitting the actual fee
petition beyond 60 days. Delayed fee petitions can lead to extra burdens on the Agency as it
must continue tracking and corresponding with the claimant representative regarding the pending
petitions.

For instance, in one of our sample cases the claimant representative submitted a fee petition
almost 3 years after SSA issued a favorable decision for his claimant in December 2004. The
claimant representative did not submit a fee petition until November 2007 for services provided
from July 1997 to February 2005. 18 SSA authorized an $8,743 fee to the claimant representative
in December 2008. Regardless, by that time, SSA had released all past-due benefits to the




13
   We also identified three incorrect fee amounts related to the fee cut-off date. For example, SSA was required to
charge an $86 user fee after December 1, 2011. The three fee payments were authorized before this date while SSA
staff processed the actual fee payments after this date without increasing the user fee from $83 to $86.
14
  Four of the six cases were among the previously mentioned seven cases where SSA was not supposed to pay the
fee directly to the claimant representative.
15
  SSA, POMS, GN 03920.019 A—Assessment on Representatives Who Receive Direct Payment
(December 2, 2013). The flat-rate dollar amount was $83 effective December 1, 2008 and increased to $86 effective
December 1, 2011.
16
  We noted this issue in a prior audit report. See SSA OIG, Controls over Payments Made to Claimant
Representatives at the Hearings Level (A-05-12-11239), December 2012. In the report, we recommended the
Agency review the excessive user fee cases identified in our review and take the necessary actions to resolve these
errors as well as improve the accuracy of future assessments.
17
  If the claimant representative does not request direct payment from SSA, the Agency has set no time limit for
representatives to submit a fee petition.
18
     The Agency sent at least one reminder notice to the claimant representative before receiving the petition.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                           6
claimant after other Agency staff assumed the claimant representative was not seeking
reimbursement for services. SSA directly paid the claimant representative in December 2011. 19

Fee Petition Supporting Evidence
We focused our review on the key documents that were essential to the fee petition process, such
as appointment forms, fee petition requests, and payment authorization documents. We were not
able to locate some of the documents, including fee petition requests in 13 cases (see Table 2).
However, we were able to find other supporting documents in SSA’s records that provided us
with sufficient evidence to complete our review of the fee petition payments. For instance, while
we might not have had a copy of the fee petition provided to the Federal judge, we were able to
locate the judge’s decision on the case referencing the fee petition document, the hours charged,
and the fee amount requested. 20

                    Table 2: Documentation Issues Related to 50 Sample Cases
                                                                                   Number Missing/
                                 Document Type
                                                                                     Incomplete
           Fee Petition Request Document                                                   13
           Claimant Representative Appointment Document                                     4
           Signed Fee Authorization Document                                                2
         Note: The 19 documents cited above related to 14 unique sample cases since some cases had more than
         1 identified problem.

Fee Petition Management Information
We found that SSA did not effectively track fee petition payments. Our review of the system
data, as well as our sample cases within those systems, indicated ODAR did not have a reliable
system or set of systems that can provide complete information on the number of pending or
completed fee petition actions. While other financial systems, such as SSA’s SPS, contain
information on fees paid to claimant representatives, information on the break out between fee
agreements and the more time-consuming fee petitions was not readily available for Agency
managers. 21




19
  This case is also among the seven cases where SSA released the past-due benefits to the claimant before it paid
the claimant representative. After multiple letters from the claimant representative to the claimant as well as the
Agency seeking reimbursement, SSA paid the claimant representative $8,743 in December 2011 and established an
overpayment on the claimant’s record. At the time of our audit, the Agency was still attempting collection on this
amount. Because of a lack of documentation in SSA’s systems, we were not able to determine whether the claimant
representative had notified the Agency of his intent to file a petition and therefore remained eligible for direct pay.
20
  The Agency houses copies of the fee documents in a variety of electronic folder locations, which we discuss in
greater detail in the next section.
21
  Even SPS has limitations since it only records authorized fees that are directly paid by the Agency. Fees collected
directly from the claimant by the claimant representative are not recorded in this system.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                           7
The Agency used several information systems to track fee petitions. 22 However, these systems
were in various SSA components and not integrated or reconciled. For instance, fee petitions at
the hearing office level were entered into CPMS and ODAR’s Fee Action Tracking System
(FAcTS). The Appeals Council tracked fee petitions via a separate system called web Attorney
Fee System (WebAFS), and OGC used the National Docketing and Management Information
System (NDMIS). 23

CPMS is an online system. However, FAcTS, WebAFS, and NDMIS operated as stand-alone
systems that relied primarily on staff manually inputting case-related data. The responsible SSA
components did not generally share information from these systems with other components. For
instance, FAcTS information was input by regional office staff and collected nationally by the
Office of the Chief ALJ (OCALJ), but it was not available to the program service centers and
field offices responsible for direct payment of fee amounts to claimant representatives.

As shown in Table 3, of the 41 sample cases that should have been tracked in the ODAR
systems, 24 we found no information in any of the systems for 12 (29 percent) cases. We found
OAO’s WebAFS to be the most complete in its tracking of the sample cases, whereas the
region’s FAcTS was the most incomplete of the three systems. 25




22
  While all of our sample cases related to the hearing and subsequent appellate levels, we did not identify any one
system monitoring fee petitions at the Operations levels. We found that claimant representative fee information was
often available in the Agency’s Master Beneficiary Record and Supplement Security Income Record, while the
accompanying documents were stored similar to cases at the hearings and AC levels.
23
  At the time of our review, OGC was implementing a new system, the Legal Automated Workflow System, to
replace NDMIS and interface with other Agency systems. This system will give OGC accessibility to the Electronic
Disability Folder.
24
     The remaining nine cases related to the Federal Court level and did not involve fee actions at the ODAR level.
25
  In our discussions with ODAR regional managers, we learned that confusion about FAcTS reporting requirements
and limited flexibility in the CPMS system may have contributed to the incomplete information in these systems.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                           8
                          Table 3: Sample Cases Tracked in ODAR Systems
                            Cases that Should Be         Cases Found in the         Percent of Cases
     Information System
                            Tracked in the System             System                    Found
        CPMS                           34                        23                        68%
        FAcTS                           9                         4                        44%
        WebAFS                          6                         6                       100%
Note: Sample cases could be tracked in more than one system.

Planned System Upgrades
In a December 2012 audit, 26 we reported that the Agency did not maintain comprehensive
management information on claimant representative appointments and fee approvals at all
levels – initial, reconsideration, and hearing and appeals. In 2012, we noted that SSA maintained
this claimant-specific and related claimant representative data in approximately 19 separate
systems. We also noted that SSA had initiated a data migration project to place all of this
information in one system. As part of this audit, we spoke to SSA managers to obtain the status
of this migration effort and they stated the project was still in the planning and analysis stage.

As we noted in our earlier report, without a comprehensive claimant representative database, the
Agency is limited in its ability to produce data on the number of represented claimants, as well as
the related fee agreements and fee petitions SSA authorized or denied, for claims adjudicated at
any level. In our current review, we noted that the Agency continues operating multiple
stand-alone systems with varying reliability that are unavailable to components that would
benefit from the fee information being tracked, such as the program service centers and field
offices that are part of the fee payment process.

Fee Petition Workgroup
In 2011, ODAR established a Fee Petition Workgroup that identified similar issues with the fee
petition process and recommended some changes to the process. 27 The workgroup made three
recommendations related to increased training, system improvements, and greater centralization
of the process. While the Agency has partially implemented one of the recommendations by
providing additional training and guidance on fee petitions, it still needs to integrate the various
claimant representative systems to improve the underlying fee petition process. We commend
ODAR for convening this workgroup to improve the fee petition process and suggest that the
Agency use this as a model to revisit fee petition controls. While ODAR plays an important role
in the process, we suggest that SSA add other involved Agency components in fee payment




26
 SSA OIG, Controls over Payments Made to Claimant Representatives at the Hearing Level (A-05-12-11239),
December 2012.
27
     See Appendix B for more on ODAR’s Fee Petition Workgroup.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                               9
workgroups to ensure uniform processing and sufficient communication among all components
responsible for this workload.

CONCLUSION
We found controls were not working as intended during our control testing of 50 fee petition
cases. For instance, we found 16 cases had payment processing errors. Moreover, we found the
tracking systems were incomplete and useful information was unavailable for management to
monitor the process. Finally, while we commend the Agency for establishing the Fee Petition
Workgroup and providing additional training on the issues identified by the workgroup, the
agency still needs to integrate the various claimant and claimant representative systems to
improve the underlying fee petition process.

RECOMMENDATIONS
To improve the monitoring and tracking of fee petitions within the Agency, we recommend SSA:

1. Provide additional training and guidance to employees to improve payment processing,
   documentation, and management information associated with fee petitions.

2. Expedite implementation of an integrated management information system that will provide
   complete and timely information and facilitate inter-component communication on fee
   petitions.

3. Review the error cases in our sample and take the necessary actions to resolve these errors, as
   appropriate.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                     10
                                       APPENDICES




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)
Appendix A – SCOPE AND METHODOLOGY
To address our objectives, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures, including applicable sections
    of the Hearings, Appeals and Litigation Law Manual.
   Reviewed prior Office of the Inspector General audits.
   Reviewed the results in the Office of Appellate Operations (OAO) Fee Petition Workgroup
    study.
   Interviewed staff and management in the Office of the Chief Administrative Law Judge and
    OAO in the Office of Disability Adjudication and Review; Office of Operations at the field
    office, program service center and Headquarters levels; and the Offices of General Counsel
    and Systems to learn about the fee payment process.
   Obtained fee payments data from the Agency’s Single Payment System (SPS) for Fiscal Year
    (FY) 2012 and identified a population of 6,771 unique claimants where 1 or more claimant
    representatives had combined payments in excess of $6,000. We selected 50 sample cases
    for control testing from this population. To obtain the 50 sample items that met our criteria,
    we reviewed a total of 123 cases in the order of selection and excluded 73 cases where the
    payment amount may have exceeded $6,000 in SPS, but the underlying documents indicated
    a payment issue that did not meet our petition criteria. For instance, SPS may have contained
    two payments for $3,500 totaling to more than $6,000, but on closer observation, one of the
    payments was returned to SSA. For the 50 sample cases we selected, the actual payments
    were $540,274, and the actual user fees were $3,996.
   For each sample item, we reviewed information in the Case Processing and Management
    System (CPMS), electronic disability folder information, Master Beneficiary
    Record, Supplemental Security Record, and Treasury Check Information System to meet our
    audit objective. It was not part of our objective to recalculate the past-due benefit amount as
    part of this review, but instead we ensured the Agency’s fee payments were consistent with
    the past-due benefit amounts payable to the claimants.
   Obtained an understanding of the various Agency systems used to track fee payments,
    including CPMS, the Fee Action Tracking System (FAcTS), the Attorney Fee System
    (WebAFS), and the National Docketing and Management Information System. Using both
    online and electronic copies of these tracking systems, we attempted to locate sample items
    that would normally be tracked by ODAR management in CPMS, FAcTS, and WebAFS.

We found the FY 2012 SPS payment data used in this review to be sufficiently reliable to meet
our objective. The entities audited included the Office of the Chief Administrative Law Judge
and OAO under the Office of the Deputy Commissioner of Disability Adjudication and Review;
the Office of Central Operations under the Office of the Deputy Commissioner for Operations;
and the Office of Program Law under the Office of the General Counsel. We conducted this
performance audit from July 2013 through May 2014 in accordance with generally accepted
government auditing standards. Those standards require that we plan and conduct the audit to


Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                     A-1
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                  A-2
Appendix B – FEE PETITION WORKGROUP
In 2011, the Office of Disability Adjudication and Review (ODAR) formed a Fee Petition
Workgroup that comprised individuals in the Office of Appellate Operations, Office of the Chief
Administrative Law Judge (OCALJ), and various ODAR administrative components. The
workgroup’s goal was to improve ODAR operations connected to the adjudication of fee
agreement and petition appeals filed by claimants and their representatives. 1 The workgroup was
set up to address complaints from program service centers, Office of Operations staff, and
claimant representatives about the delays in its fee processing. The workgroup determined that
much of the delay occurred at the hearing level because of a variety of factors, including
administrative law judges (ALJ) and staff who were unfamiliar with the fee petition process,
Case Processing and Management System limitations, manual processes without sufficient
systems support or management controls, and inconsistent fee petition processing at the various
regional levels.

The workgroup recommended increased training and centralization of the process, as follows.

   Recommendation 1: Transfer most of the regional office and OCALJ fee appeal workload
    to an ODAR centralized national fee unit located in the Office of Appellate Operations.

   Recommendation 2: Transfer hearing office and National Hearing Center (NHC)
    administrative and procedural tasks necessary for processing fee petitions or appeals of the
    amount authorized under the fee agreement to a centralized administrative unit. The decision
    maker in the hearing office/NHC (ALJ or attorney advisor) would retain responsibility for
    reviewing the prepared material and authorizing the fee.

   Recommendation 3: Apply process, systems, and training improvements to the existing fee
    adjudication structure regardless of whether Recommendations 1 and/or 2 were adopted.

ODAR managers stated senior management implemented Recommendation 3. As a result,
ODAR developed and provided training on the fee agreement and fee petition processes to
adjudicators at its Judicial Training conference in 2013. It also began developing virtual fee
agreement and fee petition training for use in ODAR. ODAR also rewrote the Hearing, Appeals,
and Litigation Law Manual (HALLEX) instructions regarding representation and published these
changes in October 2011. ODAR managers stated it has continued to update HALLEX
provisions relating to representative’s fees and additional updates were expected in 2014.




1
 The workgroup first met on February 23, 2011 and ultimately developed three recommendations, which they
presented to Agency executives on May 6, 2011.



Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                                B-1
        Appendix C – AGENCY COMMENTS




                                         SOCIAL SECURITY

MEMORANDUM


Date:   September 17, 2014                                                            Refer To:   S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Katherine Thornton /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Controls over Claimant Representative Fee
         Petition Payments” (A-05-13-13061) --INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Gary S. Hatcher at (410) 965-0680.

        Attachment




        Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"CONTROLS OVER CLAIMANT REPRESENTATIVE FEE PETITION PAYMENTS"
(A-05-13-13061)


Recommendation 1

Provide additional training and guidance to employees to improve payment processing,
documentation, and management information associated with fee petitions.

Comment

We agree. We will provide additional training and guidance to improve the payment and
processing of fee petitions. While we have ongoing adjudicator and staff meetings, providing an
annual reminder to review all policy and procedures related to the fee process is appropriate.
Starting October 2014, we plan to issue this reminder at the beginning of each fiscal year.

Recommendation 2

Expedite implementation of an integrated management information system that will provide
complete and timely information and facilitate inter-component communication on fee petitions.

Comment

We agree. We implemented two systems enhancements to improve the timeliness and accuracy
of representative information and inter-component communication on fee petitions.

On June 26, 2014, we made systems modifications to the web Attorney Fee System and to the
Fee Action Tracking System to provide each claimant representative with a representative
payment report that computes total fees paid, year to date. In addition, our Attorney Fee Branch
(AFB) in the Office of Appellate Operations, Office of Disability Adjudication and Review,
now use an Appeals Review Processing scanner, which allows payment centers, field offices,
and hearing offices to view and retrieve AFB-processed petitions, agreements, and
administrative review decisions when releasing payments or handling claimant and
representative inquiries.

While our updates did not create an integrated management information (MI) system, we believe
our improvements provide complete and timely information and inter-component
communication. Creating a new integrated MI system would require additional resources.

Recommendation 3

Review the error cases in our sample and take the necessary actions to resolve these errors, as
appropriate.




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                       C-2
Comment

We agree. We will review the cases and take any corrective action by September 30, 2014.




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)                C-3
Appendix D – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Deborah Kinsey, Audit Manager, Chicago Audit Office

Wai Ho Yung, Auditor-in-Charge

Monica Albor, Intern




Controls over Claimant Representative Fee Petition Payments (A-05-13-13061)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
